No. 19-1212

In the Supreme Court of the United States
CHAD F. WOLF,
ACTING SECRETARY OF HOMELAND SECURITY, et al.,
PETITIONERS,
v.
INNOVATION LAW LAB, et al.,
RESPONDENTS.
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

BRIEF OF THE UNITED NATIONS
HIGH COMMISSIONER FOR REFUGEES
AS AMICUS CURIAE IN SUPPORT OF RESPONDENTS
ALICE FARMER
OFFICE OF THE UNITED NATIONS HIGH COMMISSIONER
FOR REFUGEES
1800 Massachusetts Avenue,
N.W., Suite 500
Washington, DC 20036

ANA C. REYES
Counsel of Record
AYLA S. SYED
WILLIAMS & CONNOLLY LLP
725 Twelfth Street, N.W.
Washington, DC 20005
(202) 434-5000
areyes@wc.com
Attorneys for Amicus Curiae

TABLE OF CONTENTS
INTEREST OF AMICUS CURIAE ................................. 1
SUMMARY OF ARGUMENT ........................................... 3
ARGUMENT ......................................................................... 6
The United States Is Required by the 1967 Protocol
To Protect Asylum-Seekers It Transfers to Third
Countries .......................................................................... 6
A. The Immigration and Nationality Act Should Be
Interpreted Consistently with the International
Law Principle of Non-Refoulement ........................ 6
B. UNHCR Has Supervisory Responsibility for
Implementation of Refugee Law
Instruments ............................................................ 10
The Principle of Non-Refoulement Applies to
Transfer Agreements Between States ....................... 12
There Are Numerous Ways in Which the MPP is
Not Consistent with International Law .................... 15
A. The United States Has No Bilateral Agreement
with Mexico .............................................................. 15
B. The MPP Does Not Ensure that Asylum-seekers
Are Accorded Safe and Adequate Treatment ..... 16
C. The MPP Does Not Provide Individualized
Screening Interviews for All Asylum-seekers
Who Have a Fear of Returning to Mexico .......... 18
D. The MPP Does Not Give Asylum-seekers
Adequate Access to Asylum Procedure in the
United States ........................................................... 21
CONCLUSION ................................................................... 23

(I)

II
TABLE OF AUTHORITIES
Page
Cases:
Clark v. Suarez Martinez, 543 U.S. 371 (2005) ......... 10
INS v. Cardoza-Fonseca, 480 U.S. 421 (1987) ...... 7, 11
McCulloch v. Sociedad Nacional de
Marineros de Hondruas,
372 U.S. 10 (1963) .................................................... 10
Murray v. The Charming Betsy,
6 U.S. (2 Cranch) 118 (1804) .................................... 9
Negusie v. Holder, 555 U.S. 511 (2009) .................. 7, 11
The Paquete Habana, 175 U.S. 677 (1900) ................ 10
Weinberger v. Rossi, 456 U.S. 25 (1982)....................... 9
Statutes:
8 U.S.C. § 1231(b)(3)(A) .................................................. 5
Immigration and Nationality Act....................... passim
Refugee Act of 1980,
Pub. L. No. 96-212, 94 Stat. 102 .......................... 4, 7
Miscellaneous:
Committee on the Rights of the Child, General
Comment No. 6 (2005): Treatment of
Unaccompanied and Separated Children
Outside Their Country of Origin,
CRC/GC/2005/6 (Sept. 1, 2005)................................ 8
DHS, Secretary Kirstjen M. Nielsen
Announces Historic Action to Confront
Illegal Immigration (Dec. 20, 2018),
https://tinyurl.com/yxaau738 ................................. 22
DHS, Supplemental Policy Guidance for
Additional Improvement of the Migrant
Protection Protocols (Dec. 7, 2020),
https://www.dhs.gov/sites/default/files/publ
ications/supplemental_policy_guidance.pdf ........ 20

III
Page
Miscellaneous—continued:
Human Rights First, A Sordid Scheme: The
Trump Administration’s Illegal Return of
Asylum Seekers to Mexico (Feb. 20, 2019),
https://www.humanrightsfirst.org/sites/def
ault/files/A_Sordid_Scheme.pdf ...................... 15, 17
Ingrid V. Eagly & Steven Shafer, A National
Study of Access to Counsel in
Immigration Court, 164 U. Pa. L. Rev. 1
(2015) ......................................................................... 21
Guy Goodwin-Gill & Jane McAdam, The Refugee in International Law (3d ed. 2007) ............... 13
Sir Elihu Lauterpacht & Daniel Bethlehem,
The Scope and Content of the Principle of
Non-Refoulement, in Refugee Protection
in International Law: UNHCR’s Global
Consultations on International Protection
(Erika Feller et al. eds., 2003) ............................. 3, 8
Protocol Relating to the Status of Refugees,
U.N.-U.S., Nov. 1, 1968, 19 U.S.T. 6223 ................. 6
TRAC Immigration, Asylum Decisions,
https://trac.syr.edu/phptools/immigration/asylum/ (last visited Jan. 21, 2021)................ 21
TRAC Immigration, Details on MPP (Remain in Mexico) Deportation Proceedings, https://trac.syr.edu/phptools/immigration/mpp/ (last visited Jan. 21 2021) ............... 21
TRAC Immigration, Immigration Court
Backlog Tool,
https://trac.syr.edu/phptools/immigration/c
ourt_backlog/ (last visited Jan. 21, 2021) ............ 18

IV
Page
Miscellaneous—continued:
UNHCR, Advisory Opinion on the
Extraterritorial Application of NonRefoulement Obligations Under the 1951
Convention Relating to the Status of
Refugees and Its 1967 Protocol (Jan. 26,
2007),
http://www.unhcr.org/refworld/docid/45f17
a1a4.html ................................................................ 8, 9
UNHCR, Convention against Torture and
Other Cruel, Inhuman or Degrading
Treatment or Punishment, Dec. 10, 1984,
1465 U.N.T.S. 85 .............................................. 4, 8, 10
UNHCR, Convention Relating to the Status
of Refugees, July 28, 1951, 189 U.N.T.S.
137..................................................................... passim
UNHCR, G.A. Res. 428 (V), Annex, Statute of
the Office of the UNHCR (Dec. 14, 1950) .............. 2
UNHCR, Global Trends: Forced
Displacement in 2019 (June 18, 2020),
https://www.unhcr.org/5ee200e37.pdf .................... 2
UNHCR, Guidance Note on bilateral and/or
multilateral transfer arrangements of
asylum-seekers (May 2013) .......................... passim
UNHCR, Guidance on Responding to
Irregular Onward Movement of Refugees
and Asylum-Seekers (Sept. 2019) ................... 11, 12
UNHCR, Handbook on Procedures and
Criteria for Determining Refugee Status
(reissued Feb. 2019) .......................................... 11, 12

V
Page
Miscellaneous—continued:
UNHCR, Legal Considerations Regarding
Access to Protection and a Connection
Between the Refugee and the Third
Country in the Context of Return or
Transfer to Safe Third Countries
(April 2018) ..................................................... passim
UNHCR, Note on International Protection,
U.N. Doc. A/AC.96/930 (July 7, 2000)................... 11
UNHCR, Protection Policy Paper: Maritime
Interception Operations and the
Processing of International Protection
Claims: Legal Standards and Policy
Considerations with Respect to
Extraterritorial Processing
(Nov. 2010).............................................. 12, 16, 17, 21
UNHCR, Protocol Relating to the Status of
Refugees, Jan. 31, 1967, 606 U.N.T.S. 267 .. passim
UNHCR Exec. Comm., Conclusion on the
Provision of International Protection
Including Through Complementary
Forms of Protection, No. 103 (LVI), U.N.
Doc. A/AC.96/1021 (Oct. 7, 2005) ........................... 11
UNHCR Exec. Comm., General Conclusion
on International Protection, No. 79
(XLVII), U.N. Doc. A/AC.96/878 (Oct. 11,
1996) ............................................................................ 8
UNHCR Exec. Comm., Note on International
Protection, U.N. Doc. A/AC.96/815 (Aug.
31, 1993),
http://www.unhcr.org/refworld/docid/3ae68
d5d10.html .................................................................. 8

VI
Page
Miscellaneous—continued:
UNHCR Exec. Comm., Non-Refoulement,
No. 6 (XXVIII), U.N. Doc. No. 12A
A/32/12/Add.1, (Oct. 12, 1977) .................................. 8
UNHCR Exec. Comm., The Problem of
Manifestly Unfounded or Abusive
Applications for Refugee Status or
Asylum No. 30 (XXXIV) (1983, rev. 2009) .......... 19
USCIS, Guidance for Implementing Section
235(b)(2)(C) of the Immigration and
Nationality Act and the Migrant
Protection Protocols (Jan. 28, 2019),
https://www.uscis.gov/sites/default/files/do
cument/memos/2019-01-28-Guidance-forImplementing-Section-35-b-2-C-INA.pdf ..... 20, 22
Cornelis W. Wouters, International Legal
Standards for the Protection from
Refoulement (Intersentia 2009) ........................ 9, 13

In the Supreme Court of the United States
NO. 19-1212

CHAD F. WOLF,
ACTING SECRETARY OF HOMELAND SECURITY, et al.,
PETITIONERS,
v.
INNOVATION LAW LAB, et al.,
RESPONDENTS.
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

BRIEF OF THE UNITED NATIONS
HIGH COMMISSIONER FOR REFUGEES
AS AMICUS CURIAE IN SUPPORT OF RESPONDENTS

INTEREST OF AMICUS CURIAE 1

The Office of the United Nations High Commissioner
for Refugees (“UNHCR”) is the organization entrusted

The parties have consented to the filing of this brief. No counsel
for any party authored this brief in whole or in part, no such counsel
or party made a monetary contribution intended to fund the preparation or submission of this brief, and no one other than amicus curiae
and its counsel made any such monetary contribution.
1

(1)

2
by the United Nations General Assembly with responsibility, alongside governments, for providing international
protection to refugees and other persons of concern, and
for seeking permanent solutions to refugees’ problems.
G.A. Res. 428 (V), Annex, Statute of the Office of the UNHCR ¶ 1 (Dec. 14, 1950). UNHCR fulfills its mandate by,
inter alia, “[p]romoting the conclusion and ratification of
international conventions for the protection of refugees,
supervising their application and proposing amendments
thereto.” Id. ¶ 8(a). UNHCR’s supervisory responsibility
is also reflected in the Preamble and Article 35 of the Convention Relating to the Status of Refugees, July 28, 1951,
189 U.N.T.S. 137 (“1951 Convention”), and Article 2 of the
Protocol Relating to the Status of Refugees, Jan. 31, 1967,
606 U.N.T.S. 267 (“1967 Protocol”), requiring States to cooperate with UNHCR in the exercise of its mandate and
to facilitate its supervisory role.
UNHCR has won two Nobel Peace Prizes for its work
caring for people affected by forced displacement. There
are 79.5 million such people in the world today. See UNHCR, Global Trends: Forced Displacement in 2019, at 2
(June 18, 2020), https://www.unhcr.org/5ee200e37.pdf.
The views of UNHCR are informed by its seven decades
of experience supervising the treaty-based system for refugee protection. UNHCR’s interpretation of the 1951
Convention and the 1967 Protocol are both authoritative
and integral to promoting consistency in the global regime for the protection of refugees and others of concern.
UNHCR’s supervisory responsibility is exercised in part
by the issuance of interpretive guidelines on the application of international law, including the 1951 Convention
and the 1967 Protocol, to refugees and asylum-seekers.
UNHCR has long been concerned with ensuring that
States meet their obligations of non-refoulement. This

3
concern “arises from [UNHCR’s] special responsibility to
provide for the international protection of refugees.” See
Sir Elihu Lauterpacht & Daniel Bethlehem, The Scope
and Content of the Principle of Non-Refoulement, in Refugee Protection in International Law: UNHCR’s Global
Consultations on International Protection (Erika Feller
et al. eds., 2003).
As relevant to the current case, UNHCR has specifically worked to ensure that States continue to meet their
obligations of non-refoulement in the context of transfer
agreements with third countries. In 2013, UNHCR issued Guidance Note on bilateral and/or multilateral
transfer arrangements of asylum-seekers (May 2013),
(“Bilateral Transfer Arrangement Note”). In 2018, UNHCR issued another guidance on transfer agreements,
Legal Considerations Regarding Access to Protection
and a Connection Between the Refugee and the Third
Country in the Context of Return or Transfer to Safe
Third Countries (April 2018) (“Legal Guidance Paper”).
These guidance documents reflect the current state of international law on the transfer of asylum-seekers.
Given UNHCR’s long engagement on ensuring that
States meet their obligations of non-refoulement, including in instances of transfer agreements, it has a specific
interest in this matter. As discussed below, this Court
should consider the United States’ obligations to asylumseekers under international law in construing the provisions of the Immigration and Nationality Act (“INA”) at
issue in this case.
SUMMARY OF ARGUMENT

UNHCR presents its views on the international law
principles governing transfer agreements involving asylum-seekers to assist the Court in addressing the second

4
question it has certified: “Whether [the Migrant Protection Protocol] is consistent with any applicable and enforceable non-refoulement obligations.” By treaty and by
statute, the United States is in fact bound by the principle
of non-refoulement, which applies fully in the transfer of
asylum-seekers to a third country. And the Migrant Protection Protocols (“MPP”) violate this applicable principle
of non-refoulement in numerous ways.
I. The United States is party to international instruments governing asylum-seekers and preventing refoulement, including the United Nations Protocol Relating to the Status of Refugees, the International Covenant
on Civil and Political Rights, and the Convention against
Torture and Other Cruel, Inhuman or Degrading Treatment or Punishment. Congress enacted the Refugee Act
of 1980, Pub. L. No. 96-212, 94 Stat. 102, to bring United
States refugee law into conformance with the 1967 Protocol. UNHCR has supervisory authority for construing
States’ obligations under the Protocol and the United Nations Convention Relating to the Status of Refugees incorporated therein, and has issued authoritative guidance
on States’ international law obligations to protect refugees and asylum-seekers. In interpreting the INA, which
codifies the obligation of non-refoulement, 2 this Court
should consider these obligations, as reflected in UNHCR’s interpretive guidance.

The United States’ obligation to protect against refoulement
goes beyond section 1231, the statutory provision at issue here. Section 1231 is one of many statutory safeguards implemented by the
United States to fulfill its obligation under international law. This
brief focuses on section 1231 because that section is at issue in this
particular litigation, but the principle of non-refoulement is foundational to international and domestic refugee laws at large. See Pet.
App. 25a–27a.
2

5
II. The primary responsibility to provide protection
rests with the State where asylum is sought. Thus, asylum-seekers should ordinarily be processed in the territory of the State where they arrive or which otherwise has
jurisdiction over them. International refugee law does
permit a State to transfer asylum-seekers to a safe third
country for the purpose of processing their asylum claims.
However, any such transfer must be subject to safeguards, primary among them an enforceable agreement
between the transferring and receiving States. Further,
before transferring any individual asylum-seeker, the
State must afford the asylum-seeker an individualized
screening and other protections to guard against the possibility of refoulement.
III. The court of appeals’ holding that the MPP violates United States’ treaty-based non-refoulement obligations, codified at 8 U.S.C. § 1231(b)(3)(A) and elsewhere
in the INA, is consistent with international law. See Pet.
App. 38a. The violations are numerous: (A) the Government has failed to enter into an enforceable bilateral
agreement with Mexico before returning noncitizens
there under the MPP program; (B) the Government has
failed to make any assessment as to whether the conditions in Mexico comport to international standards;
(C) the Government does not ensure, during an individualized interview, that the asylum-seeker is protected from
refoulement by being returned to Mexico; and (D) the
Government has failed to ensure that asylum-seekers returned to Mexico can in fact pursue their claims in the
United States.
These failures of the MPP create the very real risk
that asylum-seekers returned to Mexico will be subject to
refoulement or chain-refoulement, in violation of the

6
United States’ international obligations. Section 1231 of
the INA should be read so as to avoid such violations.
ARGUMENT
The United States Is Required by the 1967 Protocol To
Protect Asylum-Seekers It Transfers to Third Countries

The United States has bound itself to international instruments that inform international standards for the
transfer of asylum-seekers to third countries pending resolution of their petitions for asylum. In deciding the second question presented by this case, this Court must construe the applicable statutes consistently with the United
States’ international law obligations to asylum-seekers to
the fullest extent possible. In doing so, it should consider
UNHCR’s authoritative guidance on the state of international law and practice as it relates to the transfer of asylum-seekers.
A.

The Immigration and Nationality Act Should
Be Interpreted Consistently with the International Law Principle of Non-Refoulement

The 1951 Convention and 1967 Protocol are the foundational international instruments that govern the legal
obligations of States to protect refugees. The 1967 Protocol binds parties to comply with the substantive provisions
of Articles 2 through 34 of the 1951 Convention. 1967 Protocol art. 1, ¶¶ 1–2. 3
The United States acceded to the 1967 Protocol in
1968, see 19 U.S.T. 6223, thereby binding itself to the international refugee protection regime contained in the
The 1967 Protocol universalizes the refugee definition in Article
1 of the 1951 Convention, removing the geographical and temporal
limitations. Id. ¶¶ 2–3.
3

7
1951 Convention. Congress enacted the Refugee Act of
1980, which amends the INA, expressly to “bring United
States refugee law into conformance with the [1967 Protocol].” INS v. Cardoza-Fonseca, 480 U.S. 421, 436–37
(1987); see also Negusie v. Holder, 555 U.S. 511, 537 (2009)
(Stevens, J., concurring in part).
Under the 1951 Convention and 1967 Protocol, a refugee is a person who, “owing to well-founded fear of being
persecuted for reasons of race, religion, nationality, membership of a particular social group or political opinion, is
outside the country of his nationality and is unable or, owing to such fear, is unwilling to avail himself of the protection of that country.” 1951 Convention art. 1, ¶ A(2); 1967
Protocol art. 1, ¶¶ 2–3.
The core of the 1951 Convention and 1967 Protocol is
the obligation of States to safeguard the principle of nonrefoulement. Set out in Article 33 of the 1951 Convention,
States have the obligation not to return a refugee to any
country where he or she faces persecution or a reasonable
possibility of serious harm:
(1) No Contracting State shall expel or return
(‘refouler’) a refugee in any manner whatsoever
to the frontiers of the territories where his life or
freedom would be threatened on account of his
race, religion, nationality, membership of a particular social group or political opinion.
1951 Convention art. 33, ¶ 1. This principle is broad in
scope. The expression “in any manner whatsoever” indicates that the concept of refoulement must be construed
expansively. This is so because one of the foundational
goals of international refugee law is to ensure that refugees who have sought safety abroad are not returned to a

8
country in which they may face the very persecution, torture and potential death that they escaped their home
country to avoid. 4 See UNHCR Exec. Comm., Non-Refoulement, No. 6 (XXVIII), U.N. Doc. No. 12A
A/32/12/Add.1 (Oct. 12, 1977); UNHCR Exec. Comm.,
General Conclusion on International Protection, No. 79
(XLVII), U.N. Doc. A/AC.96/878 (Oct. 11, 1996).
In UNHCR’s view, non-refoulement is so universal
that it has become a principle of customary international
law. See Lauterpacht & Bethlehem, supra. It is of such a
fundamental importance that it appears not only in the
refugee law framework but also as a central principle in
various related bodies of international human rights law.
See Convention against Torture art. 3; Committee on the
Rights of the Child (“CRC”), General Comment No. 6
(2005): Treatment of Unaccompanied and Separated
Children Outside Their Country of Origin,
CRC/GC/2005/6 (Sept. 1, 2005) (referencing CRC articles
6 and 37).
Article 33’s obligation of non-refoulement applies to
both returns and removals equally. 1951 Convention art.
33(1) (noting the prohibition on refoulement “in any manner whatsoever”); Bilateral Transfer Arrangement Note
at ¶ 3(vi) (prohibiting both the expulsion and the return of

The prohibition of refoulement applies to refugees and asylumseekers alike, i.e., to those who have formally been recognized as refugees and to those whose status has not yet been determined. See
UNHCR Exec. Comm., Note on International Protection, ¶ 11, U.N.
Doc. A/AC.96/815 (Aug. 1993), http://www.unhcr.org/refworld/docid/3ae68d5d10.html; UNHCR, Advisory Opinion on the Extraterritorial Application of Non-Refoulement Obligations Under the 1951
Convention Relating to the Status of Refugees and Its 1967 Protocol,
¶¶ 26–31 (Jan. 26, 2007), http://www.unhcr.org/refworld/docid/45f17a1a4.html.
4

9
a refugee to a country where she fears persecution); UNHCR, Advisory Opinion on the Extraterritorial Application of Non-Refoulement Obligations. “The prohibition … includes a wide range of actions whereby the refugee is forcibly removed from or forced to leave the territory of a host State. It is irrelevant whether this is labelled expulsion, deportation, repatriation, rejection, informal transfer…” Cornelis W. Wouters, International
Legal Standards for the Protection from Refoulement 133
(Intersentia 2009) [hereinafter “Wouters”]. The scope of
the protection from refoulement applies not only to the
refugee’s country of origin, but to any territory in which
there is a threat of persecution. Id. at 134.
While the asylum process exists to determine who is in
need of protection against refoulement, individuals are
entitled to protection from refoulement while that adjudication is pending. Although States may enter into agreements with other States to receive asylum-applicants during the pendency of their claims, those transfers must ensure protection against refoulement, both to the home
country and to any other country in which the asylumseeker may face persecution or a reasonable possibility of
serious harm, including the country receiving the transferred asylum-seekers. These principles apply with equal
force to all asylum-seekers, whether they are subject to
being removed or temporarily returned to another State.
Courts have a responsibility to construe federal statutes in a manner consistent with United States treaty obligations to the fullest extent possible. “It has been a
maxim of statutory construction since the decision in
Murray v. The Charming Betsy, 6 U.S. (2 Cranch) 118
(1804), that ‘an act of congress ought never to be construed to violate the law of nations, if any other possible
construction remains.’” Weinberger v. Rossi, 456 U.S. 25,

10
32 (1982) (quoting McCulloch v. Sociedad Nacional de
Marineros de Hondruas, 372 U.S. 10, 20–21 (1963)); see
also The Paquete Habana, 175 U.S. 677, 700 (1900) (“International law is part of our law, and must be ascertained
. . . by the courts . . . of appropriate jurisdiction . . . .”).
Because the INA implicates the rights of asylum-seekers,
this Court must necessarily consider the United States’
international law obligations to protect asylum-seekers in
construing it. Cf. Clark v. Suarez Martinez, 543 U.S. 371,
380–81 (2005). It should therefore construe section 1231,
the statute at issue in this litigation, of the INA consistent
with the United States’ obligations under the 1951 Convention and 1967 Protocol and other international treaties
to which it is party, including the Convention against Torture.
B.

UNHCR Has Supervisory Responsibility for
Implementation of Refugee Law Instruments

UNHCR is responsible for supervising the implementation of the 1951 Convention and the 1967 Protocol. See
supra p.2. In exercising its supervisory responsibility to
protect refugees, UNHCR looks to international human
rights law to inform the substance of that protection. The
preamble to the 1951 Convention embeds the Convention
within a broader human rights framework. See 1951 Convention at 1. UNHCR’s governing body, the Executive
Committee (of which the United States has been a member since 1959), has recognized that
refugee law is a dynamic body of law based on
the obligations of State Parties to the 1951
Convention and its 1967 Protocol . . . and
which is informed by the object and purpose
of these instruments and by developments in

11
related areas of international law, such as human rights and international humanitarian
law bearing directly on refugee protection.
UNHCR Exec. Comm., Conclusion on the Provision of
International Protection Including Through Complementary Forms of Protection, No. 103 (LVI), U.N. Doc.
A/AC.96/1021 (Oct. 7, 2005); see also UNHCR, Note on
International Protection ¶ 32, U.N. Doc. A/AC.96/930
(July 7, 2000).
In construing statutes pertaining to immigration law,
this Court has relied on UNHCR guidance to discern the
United States’ international law obligations to protect
asylum-seekers. See, e.g., Negusie, 555 U.S. at 537 (referring to UNHCR’s Handbook on Procedures and Criteria
for Determining Refugee Status, “to which the Court has
looked for guidance in the past”); Cardoza-Fonseca, 480
U.S. at 438–39 (looking to the Handbook for guidance).
Of interest here, UNHCR has issued considerable
guidance to clarify States’ obligations to asylum-seekers
and refugees under international law with regard to
States’ interests in forming bilateral or multilateral transfer agreements of asylum-seekers. See Bilateral Transfer Arrangement Note; Legal Guidance Paper; see also
UNHCR, Guidance on Responding to Irregular Onward
Movement of Refugees and Asylum-Seekers (Sept. 2019)
[hereinafter, “Irregular Onward Movement Guidance”].
UNHCR’s guidance draws on international refugee law
and human rights principles indicated by the 1951 Convention and the 1967 Protocol. These principles include
the fundamental protection against non-refoulement,
which applies to any asylum-seeker that a State wishes to
transfer to a third country during the processing of the
individual’s asylum claim.

12
The Principle of Non-Refoulement Applies to Transfer Agreements Between States

Asylum-seekers should ordinarily be processed in the
State in which they seek asylum. See UNHCR, Protection Policy Paper: Maritime Interception Operations
and the Processing of International Protection Claims:
Legal Standards and Policy Considerations with Respect
to Extraterritorial Processing (Nov. 2010) [hereinafter
“Extraterritorial Processing Paper”]; Irregular Onward
Movement Guidance at ¶¶ 16–32. 5
As a limited exception to this general rule, States may
enter into formal agreements to facilitate the transfer of
asylum-seekers to other States to await processing. However, a State may not use these agreements to “divest itself of responsibility and shift that responsibility to another State” or “as an excuse [by the State] to deny or
limit its jurisdiction under international refugee and human rights law.” Extraterritorial Processing Paper at
¶ 49. Rather, any agreement should “contribute to the enhancement of the overall protection space in the transferring State, the receiving State and/or the region as a
whole.” Bilateral Transfer Arrangement Note at ¶ 3(iv).
In order to ensure that the participating States comply
with the mandates of the 1951 Convention, the agreement
should be “governed by a legally binding instrument …
enforceable in a court of law.” Id.
A State does not absolve itself of responsibility to prevent refoulement by transferring the individual to another State. Bilateral Transfer Arrangement Note at
See also Handbook ¶ 192(vii) (“The applicant should be permitted to remain in the country pending a decision on his…request…unless it has been established…that his request is clearly abusive. He
should also be permitted to remain in the country while an appeal to
a higher administrative authority or to the courts is pending.”)
5

13
¶ 3(viii). The transferring State is responsible if the receiving State goes on to refoule the transferred person.
Id. at ¶ 4; Guy Goodwin-Gill & Jane McAdam, The Refugee in International Law, 252-53 (3d ed. 2007) (“While a
State that actually returns a refugee to persecution . . .
remains primarily responsible for that act, the first State,
through its act of expulsion, may be jointly liable for it.”);
see also Wouters at 140.
Accordingly, any arrangement that involves the return or transfer of people who may be in need of international protection from one country to another must encompass key refugee protection safeguards in order to
avoid placing individuals at risk of refoulement. This is so
even if the purpose of the transfer is for the asylum-seekers to await the asylum determination by the transferring
State in the receiving State. For any such arrangement
to be appropriate under international law, it needs to be
governed by a legally binding instrument that is challengeable and enforceable in a court of law by affected
asylum-seekers. Bilateral Transfer Arrangement Note
at ¶ 3(v).
The transfer arrangement needs to guarantee that
each asylum-seeker:
• will be individually assessed as to the appropriateness of the transfer, subject to procedural safeguards,
prior to transfer; 6

In certain limited circumstances, a State may transfer an asylum-seeker without an individualized assessment. Legal Guidance
Paper ¶ 5. Those circumstances are not present here, as they require
both the existence and availability of certain objective standards of
protection in the receiving State, as well as firm undertakings by that
State that those returned will have access to protection, assistance
6

14
• will be admitted to the proposed receiving State,

and permitted to remain while a determination is made;
• will be protected against refoulement;
• will have access to fair and efficient procedures for
the determination of refugee status and/or other forms of
international protection;
• will be treated in accordance with accepted international standards (for example, appropriate reception
arrangements; access to health, education and basic services; safeguards against arbitrary detention; persons
with specific needs are identified and assisted); and
• if recognized as being in need of international protection, will be able to receive asylum and/or access a durable solution.
Id. at ¶ 3(vi). If any of these standards are not or cannot
be met by the receiving State, then the transfer violates
international law. Id.
The obligation to ensure that conditions in the receiving State meet these requirements rests with the transferring State, prior to entering into such arrangements.
It is not enough for the transferring State to merely assume that an asylum-seeker would be treated in conformity with these standards. Regular monitoring and review
by the transferring State of the transfers and the conditions in the receiving State is also required to ensure they
continue to meet international standards. Id. at ¶ 3(viii).

and other guarantees. Id. Even in those limited circumstances, however, the transferring State has to provide individualized screenings
for asylum-seekers who are part of vulnerable groups, including unaccompanied children. Id.

15
There Are Numerous Ways in Which the MPP is Not
Consistent with International Law
A.

The United States Has No Bilateral Agreement
with Mexico

Neither party contests the fact that there is no legally
binding bilateral agreement between the U.S. and Mexico. Yet, as highlighted immediately above, any arrangement between States for the transfer of asylum-seekers is
to be governed by a legally binding instrument, challengeable and enforceable in a court of law by the affected asylum-seekers. Bilateral Transfer Arrangement Note at
¶ 3(v). The arrangement needs to clearly stipulate the
rights and obligations of each State and the rights and duties of asylum-seekers. Id. Without such an agreement
enforceable in Court, the United States cannot fulfill its
duty of ensuring a receiving State has adequate safeguards in place to protect against refoulement prior to
transfer.
Public statements made by the U.S. and Mexico in relation to the MPP do not detail specific implementation
mechanisms in a legally binding instrument such that asylum-seekers could enforce its guarantees in a court of law.
Further, the Mexican government has called the MPP
program a “unilateral” action by the United States. See,
e.g., Human Rights First, A Sordid Scheme: The Trump
Administration’s Illegal Return of Asylum-seekers to
Mexico
(Feb.
20,
2019),
https://www.humanrightsfirst.org/sites/default/files/A_Sordid_Scheme.pdf;
Joint App. 147–48 (press release from the Mexican government stating it was “informed” by the United States of
the MPP the morning of December 20, 2018, the same day
it was formally announced as a policy by the Secretary of
Homeland Security). Thus, the MPP does not “clarify the

16
responsibilities of each State and the procedures to be followed” in implementing the policy. Extraterritorial Processing Paper ¶ 8.
Without such an agreement, the United States cannot
provide assurance that asylum-seekers will be safe from
the risk of refoulement. There is also no guarantee that
asylum-seekers will be accorded the relevant rights to
which they are entitled under the 1951 Convention and its
1967 Protocol, including: admission and permission to
stay; appropriate reception standards; access to health,
education and basic services; safeguards against arbitrary detention. Bilateral Transfer Note at ¶ 3(vi); Legal
Guidance Paper ¶ 4. An appropriate agreement would
guarantee not only that the United States is not refouling
asylum-seekers to harm in the receiving State, but also
that the receiving State will not, in turn, refoule individuals to their country of origin or any other country.
B.

The MPP Does Not Ensure that Asylum-seekers Are Accorded Safe and Adequate Treatment

In furtherance of its duties under the 1951 Convention, the transferring State must ensure that a transfer
arrangement guarantees that each asylum-seeker, inter
alia, “will be treated in accordance with accepted international standards.” Bilateral Transfer Arrangement Note
at ¶ 3(vi).
The transferring State must take measures prior to
any transfer to ensure that the asylum-seekers’ rights under the Refugee Convention will be protected in the receiving State. See supra at 13–14. The State’s duties to
ensure adequate protection of the rights of asylum-seekers persist as long as the State has either de jure or de
facto control over the applicant, regardless of whether the
refugee has been transferred to another State. Bilateral
Transfer Arrangement Note at ¶ 3(ii).

17
These arrangements “must address the basic needs of
new arrivals, and provide for a stay consistent with the
right to an adequate standard of living.” Extraterritorial
Processing Paper ¶ 23. Consistent with the mandates of
the 1951 Convention and its 1967 Protocol, an individual
shall not be subject to arbitrary detention. Id. ¶ 26. Additionally, the relocated individual must have legal status
in the receiving State throughout the adjudication period.
Legal Guidance Paper ¶ 4.
The MPP is at odds with the international standards
for adequate reception of asylum-seekers discussed above
for at least three reasons. First, the U.S. government,
prior to implementing the MPP, made no substantial assessment of whether the Mexican government has the infrastructure in place to adequately provide for asylum applicants as they await their claims, as required by international law prior to the initiation of transfer arrangements.
Second, UNHCR is aware of human rights reporting
that those in Mexico subject to the MPP are indeed in
grave danger. Asylum-seekers awaiting their hearings in
Mexico are reported to have been murdered, kidnapped,
tortured, raped and otherwise sexually assaulted, extorted, and been targeted for other violent attacks. 7 Reports indicate that conditions in Mexico for asylum-seekers are unsafe in other ways as well, as many asylumseekers are without access to safe shelter, sufficient food,
proper sanitation, or adequate medical care. 8

7
Human Rights First, A Sordid Scheme, supra; Mot. in Supp.
TRO, Rodriquez Decl., ECF No. 20-3; Ramos Decl. ¶¶ 32, 37-44, ECF
No. 20-7; Shepherd Decl. ¶¶ 10-21, ECF No. 20-11.
8

Human Rights First, A Sordid Scheme, supra.

18
International law requires that the United States ensure that asylum-seekers are safe in the receiving State.
Given the lack of conditions of safety in the location where
the MPP is being implemented, this requirement cannot
be met.
Third, the United States has failed to ensure that asylum-seekers awaiting adjudication in the United States
will be permitted to remain in Mexico throughout the duration of the adjudication procedure. The Mexican government currently provides a one-year humanitarian visa
to individuals as they await the adjudication of their asylum claims and can renew those visas. However, Mexico
is under no obligation to provide or renew this one-year
humanitarian visa, as it has no formal agreement with the
United States to provide any visa for those in the MPP
program. Accordingly, Mexico could refuse to provide visas and chain refoule asylum-seekers, for which they
would have no legal relief, at any time. Moreover, this
one-year period falls short of covering the current lengthy
waiting period experienced on average by asylum-seekers
in the United States. See TRAC Immigration, Immigration Court Backlog Tool, https://trac.syr.edu/phptools/immigration/court_backlog/ (last visited Jan. 21, 2021) (compiling data from U.S. immigration court proceedings and
finding, as of November 2018, cases remained pending in
immigration court an average of 718 days prior to adjudication).
C.

The MPP Does Not Provide Individualized
Screening Interviews for All Asylum-seekers
Who Have a Fear of Returning to Mexico

Because of “the grave consequences of an erroneous
decision” to return someone to a country where they are
at risk of harm, any determination of whether to transfer

19
an individual outside of the country requires an individualized assessment of the facts and circumstances of each
case. UNHCR Exec. Comm., The Problem of Manifestly
Unfounded or Abusive Applications for Refugee Status
or Asylum No. 30, 164 (XXXIV) (1983, rev. 2009); Bilateral Transfer Arrangement Note at ¶ 3(vi).
The MPP does not ensure that it screens all asylumseekers, and the screening that the Government does provide is not adequate under international law standards.
Under the current screening used to implement the MPP,
asylum-seekers must affirmatively express fear of harm
before they are allowed to present that fear to a United
States official. Because few, if any, asylum-seekers are
versed in American law, an asylum-seeker cannot be expected to sua sponte express a fear of returning to Mexico
to await processing. Thus, the Government does not provide all asylum-seekers who have a fear of returning to
Mexico with the screening that international refugee law
requires to protect against refoulement.
The screening itself, for those who receive it, also does
not comport with international law. To start, the screening requires asylum-seekers to establish that there is a
“more likely than not” chance that they will be subject to
persecution in Mexico on account of a protected ground.
See Pet. App. at 57, 59. That standard is considerably
higher than that used to determine if someone is eligible
for asylum based on fear of persecution on account of a
protected ground. Id. And the asylum decision is itself
normally applied only after a full hearing in immigration
court.
UNHCR further understands that the screening interviews themselves have become essentially pro forma.
According to Human Rights First, the screening interviews have become cursory and hostile. Some MPP fear

20
interviews last only minutes, consist of yes-or-no questions, and focus on issues not relevant to fear of being sent
to Mexico. If these reports are accurate, even partially so,
then the screening interviews themselves also fall well
short of international law standards in ensuring non-refoulement. Bilateral Transfer Agreement Note at 2; Legal Guidance Paper at 2.
There is no appeal from the decision made at the
screening interview to transfer an asylum-seeker to Mexico. See USCIS, Guidance for Implementing Section
235(b)(2)(C) of the Immigration and Nationality Act and
the Migrant Protection Protocols (Jan. 28, 2019),
https://www.uscis.gov/sites/default/files/document/memos/2019-01-28-Guidance-for-ImplementingSection-35-b-2-C-INA.pdf; DHS, Supplemental Policy
Guidance for Additional Improvement of the Migrant
Protection
Protocols
(Dec.
7,
2020),
https://www.dhs.gov/sites/default/files/publications/supplemental_policy_guidance.pdf. Particularly given the
numerous procedural issues associated with the screening
interview, the lack of an appeal right is also in violation of
international law.
Those without counsel will have received limited or no
legal information and typically do not have a full understanding of their rights or the consequences of failing to
exercise them. Coupled with the heightened standards of
proof for screening interviews and rules around how adjudicators must decide cases at the screening stage, it is
especially important that individuals have access to an appeal of the screening decision. 9
9
In UNHCR’s experience, it is often challenging for asylumseekers to obtain representation during screening. Less than eight

21
D.

The MPP Does Not Give Asylum-seekers Adequate Access to Asylum Procedure in the
United States

The point of a transfer agreement is typically to provide a place for asylum-seekers to await the processing of
their asylum claims in the transferring State. Therefore,
the asylum-seeker must have “legal and physical access
to asylum procedures and the necessary facilities for submitting applications” and have available to them “legal advice and interpretation, and adequate time for the preparation of claims.” Extraterritorial Processing Paper at 6
(emphasis added).
The MPP lacks these key safeguards, as readily shown
by the grant rates of U.S. asylum claims. Less than two
percent of asylum-seekers in the MPP are ultimately
granted relief. The asylum grant rate is approximately 40
percent for those outside of the program. See TRAC Immigration, Details on MPP (Remain in Mexico) Deportation Proceedings, https://trac.syr.edu/phptools/immigration/mpp/ (last visited Jan. 21, 2021) (providing the
proportion of MPP cases in which relief was granted);
TRAC
Immigration,
Asylum
Decisions,
https://trac.syr.edu/phptools/immigration/asylum/ (last
visited Jan. 21, 2021) (providing the proportion of nonMPP cases in which asylum was granted in removal proceedings).
percent of asylum-seekers in the MPP program are represented by
counsel; while nationally the rate of asylum-seekers represented by
counsel is approximately 37 percent. This is no small problem. A
study of data released by the U.S. Government shows that an asylumseeker is 5.5 times more likely to receive a positive determination if
he or she is represented by a lawyer. Ingrid V. Eagly & Steven
Shafer, A National Study of Access to Counsel in Immigration
Court, 164 U. Pa. L. Rev. 1, 6, 9 (2015).

22
This disparity is not happenstance. UNHCR believes,
based on its first-hand observations, that it exists because
asylum-seekers in the MPP program do not have adequate opportunity to pursue their U.S. asylum claims.
And the disparity proves that numerous individuals with
valid claims in the MPP are denied asylum in the U.S. and
are left at risk of refoulement. Both are the very type of
violation of international refugee law that the INA, including section 1231, is intended to guard against.
The MPP therefore violates the INA, including section
1231, as it lacks the key safeguards necessary to ensure
adequate access to asylum procedure in the United
States.
First, the MPP forces asylum-seekers to travel from
Mexico to access the legal system with jurisdiction over
their claims in the United States. See USCIS, Guidance
for Implementing Section 235(b)(2)(C) of the Immigration and Nationality Act and the Migrant Protection
Protocols. To UNHCR’s knowledge, the United States
has made no provisions for how asylum-seekers are to return safely to a port of entry after being sent to Mexico or
how they are to enter the United States for matters other
than court hearings; i.e., meetings with legal counsel or
obtaining documents pertaining to their cases. DHS, Secretary Kirstjen M. Nielsen Announces Historic Action to
Confront Illegal Immigration (Dec. 20, 2018), https://tinyurl.com/yxaau738 (“Aliens will have access to … the
U.S. for their court hearings.”).
Second, the fact that asylum-seekers are not allowed
to remain in United States territory in between court appearances makes the process of finding effective legal
representation difficult, if not practically impossible. This
is particularly true for vulnerable groups with little finan-

23
cial means to afford travel for themselves let alone for recurring meetings with legal counsel. Asylum-seekers face
tremendous difficulty accessing lawyers barred in the
United States as they wait in Mexico, and the policies
make it nearly impossible for these applicants to meet
their attorneys in person, diminishing the quality of legal
representation they will receive.
CONCLUSION

For the foregoing reasons, UNHCR respectfully
urges this Court to hold that the MPP is not consistent
with the United States’ non-refoulement obligations,
which are codified in the Immigration & Nationality Act,
including in section 1231 of that act.
Respectfully submitted.
ALICE FARMER
OFFICE OF THE UNITED NATIONS HIGH COMMISSIONER
FOR REFUGEES
1800 Massachusetts Avenue, N.W., Suite 500
Washington, DC 20036

JANUARY 22, 2021

ANA C. REYES
Counsel of Record
AYLA S. SYED
WILLIAMS & CONNOLLY LLP
725 Twelfth Street, N.W.
Washington, DC 20005
(202) 434-5000
areyes@wc.com
Attorneys for Amicus
Curiae

